CERTIFICATE of SERVICE
This is to certify that a copy of the foregoing “PETITION FOR WRIT OF MANDAMUS/
PROHIBITION” was served via United States Mail on August 5, 2019 to:
Mr. Charles P. Rettig
Commissioner, IRS
Office of Procedure and Administration
1111 Constitution Ave. NW,
Room 5503
Washington, D.C. 20224

Mr. William P. Barr
United States Attorney General
Department of Justice
950 Pennsylvania Ave. NW
Washington, D.C. 20530

Mr. Richard E. Zuckerman
Deputy Assistant Attorney General
Tax Division
U.S. Department of Justice
950 Pennsylvania Ave., NW
Washington, D.C. 20530

Ms. Jessie K. Liu
U.S. Attorney for the District of Columbia
Civil Process Clerk
555 Fourth Street, NW
Washington, D.C. 20530

Mr. Phillip A. Talbert
United States Attorney
U.S. Department of Justice
P.O. Box 683, Ben Franklin Station
Washington, D.C. 20044

Mr. McGregor Scott
U.S. Attorney for the Eastern District of
California
Robert E. Coyle United States Courthouse
2500 Tulare Street, Suite 4401
Fresno, CA 93721

Mr. Jonathan M. Hauck
Trial Attorney, Tax Division
U.S. Department of Justice
P.O. Box 683, Ben Franklin Station
Washington, D.C. 20044

Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001

Mr. Anthony T. Sheehan
Trial Attorney,
U.S. Department of Justice
Tax Division/Appellate Section
P.O. Box 502, Ben Franklin Station
Washington, D.C. 20044

Office of the Clerk
James R. Browning Courthouse
U.S. Court of Appeals for the Ninth Circuit
95 Seventh Street
San Francisco, CA 94103-1526

Melba Ford

18-

Melba Ford - Petition for Writ of Mandamus/Prohibition

Page 1

